                      NATIONAL SCIENCE FOUNDATION
                        WASHINGTON, D.C. 20550




    Office of
Inspector General



MEMORANDUM

     DATE:   August 12, 1993
      VIA : :
     FROM:

                nves iga   1   Unit
 SUBJECT:    Possible Misuse of Funds by Grantee

       TO:   Case No. I93070025




1990, no monograph had been
stated that he believed Dr.
                               w   ed as of 1993. The complainant
                                  may have had no plan to produce
the monograph, and instead may ave kept the award funds, almost
$14,000 of which was for printing and publication costs.
We   talked with Dr.                          he program director who

                                ian for the
         and with Dr.


                                        Dr.


.An outstanding issue in this matter
originally budgeted for printing and
placed these funds on account with a
the book was not ready for printing until 1993, the funds remained
                                                    ,

with the printer, presumably drawing interest.         The grantee
explained to us that this interest would be applied toward printing
costs, which he expected to be greater than originally thought. We
discussed this matter informally with the Office of Audit; as the
grantee did not personally gain from the placement of funds with
the printer, and due to the limited sum involved, further
expenditure of audit or investigative resources in pursuit of the
matter was deemed inappropriate. We counseled Dr.           about
continuing to monitor awards to ensure that the terms
are fulfilled.
The terms of the award will be fulfilled with the publication of
the monograph. As no further issues of concern were found, this
case is closed.
